fn

sume (CQCKLE

+ E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B riefs contact@cocklelegalbriefs.com
1-800-225-6964 . Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 19-1134

LONNY E. BALEY, ET AL.,
Petitioners,
Vv.
UNITED STATES, PACIFIC COAST
FEDERATION OF FISHERMEN’S ASSOCIATIONS,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the REPLY BRIEF FOR
PETITIONERS in the above entitled case complies with the typeface requirement of Supreme
Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point

for the footnotes, and this brief contains 2955 words, excluding the parts that are exempted by
Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 29th day of May, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

 

GEAENAL ROTARY State of lobraska Chih
A RENEE J. GOSS Kone. 9. Loo Qudwaw-k, o
‘My Comm. Exp. September 5, 2023 -

. = * Notary Public Affiant SISIT
